In the Supreme Court of the United States
STEVEN COOPER
Petitioner,
'"M '

v.-

!*

i

ML

STATE OF FLORIDA
Respondents,

filed
MAR | 8 2021

PETITION FOR WRIT OF CERTIORARI TO THE FLORIDA
FIRST DISTRICT COURT OF APPEALS, RE: 1DCA NO.- 1D20-2552

/s/Steven Cooper, Pro Se
PO Box 18617
Panama City Beach, FL 32417
AdversePossessionIsNotACrime@gmail.com
850-312-5243

RECEIVED
MAR 2 5 2021

ms&sssgtsz l

QUESTION PRESENTED
• Whether it is unconstitutional for a defendants’ pro per Motion to Discharge
Counsel and Waiver of Right to Counsel to be dismissed for the only reason
being he is represented by counsel and his pleadings are thus a nullity.
1. Whether it is unconstitutional for an adverse possessor, after establishing
possession and making the required return as allowed for by Florida Statute
95.18, to be arrested and tried for trespass, grand theft and criminal mischief
simply for adversely possessing real property and despite Florida Statute
95.18 providing a crime is committed only if a return is not made.
2. Whether it is unconstitutional for a circuit court to dismiss pro per pleadings
by a defendant seeking to discharge assigned counsel and self represent.
3. Whether a judgment denying certiorari relief without explanation by the
Florida First District Court of Appeal is unconstitutional.
4. Whether it is unconstitutional for a citizen to be arrested for trespass, grand
theft and criminal mischief simply for adversely possessing real property.

RELATED CASE
1. SCOTUS Case NO. 20-6207

Case No.

In the Supreme Court of the United States
STEVEN COOPER
Petitioner,

v.
STATE OF FLORIDA
Respondents,

PETITION FOR WRIT OF CERTIORARI TO THE FLORIDA
FIRST DISTRICT COURT OF APPEALS, 1DCA NO.- 1D20-2552

Petitioner, Steven Cooper, humbly and respectfully asks that a writ of
certiorari issue to review the judgment issued without opinion by the Florida First
District Court of Appeal, 1DCA# 1D20-2552, filed on August 31, 2020.

OPINION BELOW
The judgment issued without opinion by the First District Court of Appeal
was issued on December 16, 2020. An appeal to The Florida Supreme Court was
not submitted given it does not have jurisdiction to review decisions issued by the

First District Court without a written explanation of its decision. This appeal
serves as the only available review of the First District Courts opinion denying the
certiorari petition.
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a). The
decision for which petitioner seeks review was issued on December 16, 2020, this
petition filed within 90 days of that decision, is for discretionary review under
Rules 13.1 and 29.2 of this Court.
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
• United States Constitution, Amendment 5 provides, in pertinent part:

No

person shall... be deprived of life, liberty, or property without due process of
law....
• United States Constitution, Amendment 7 provides, in pertinent part:
Where the value in controversy shall exceed twenty dollars, the right of trial
by jury shall be preserved... according to the rules of the common law.
• United States Constitution, Amendment 14 Section 1 provides, in relevant part:
No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.

• United States Code 28 USC1361: Action to compel an officer provides, in
relevant part:

Courts shall have original jurisdiction of any action in the

nature of mandamus to compel an officer or employee or any agency to perform
a duty owed...
• Florida Statute for Adverse Possession without Color of Title section 95.18
provides, in relevant part:

(9) A person who occupies... solely by claim of

adverse possession... prior to making a return as required under subsection (3),
commits trespass.
STATEMENT OF CASE
This Petition follows willful manifest injustice attack upon a law-abiding
adverse possessor l) unlawfully trespassed 2) falsely arrested 3) maliciously
prosecuted 4) intentionally deprived of fundamental rights. Petitioner is a victim of
an onslaught of grotesque negligence by State Constitutional Offices and its
Officers in opposition of Florida Statutes as an attack upon his adverse possession
and in retaliation to his complaints.

An adverse possessor, after lawfully

establishing adverse possession in compliance with Florida Statute 95.18,
petitioner was trespassed then later arrested and charged with grand theft a year
later only after making a formal complaint to the Sheriffs office and initiating civil
action against the Sheriffs office in an attempt to have the property returned.
Mandamus was sought to compel the Sheriffs Office to perform its duty to enforce

and comply with the laws of Florida of which provide the statutory right to
adversely possess real property, additionally specifying trespass is only applicable
when the required notice form is not submitted and theft is only applicable if the
property is leased to another, again prior to submitting the required form.
Petitioner was first criminally trespassed from his adversely possessed
property in April of 2018. Then, after thirteen months of civil litigation, retaliatory
arrested for grand theft and criminal mischief by a warrant issued thirteen days
after submission of a written complaint.

Since the arrest he has received

incompetent, intentionaUy-ineffective assistance of counsel and biased unfair
prejudice from the court such as dismissing as nullities pro per pleadings seeking
to discharge counsel and self represent.
Petitioner continues to be denied his constitutional right to self
representation by a circuit court lacking subject matter jurisdiction. After filing a
Waiver of Right to Counsel, Notice of Pro Per Appearance, Motion to Dismiss the
Information, and Motion for Hearing on and Order on Pleadings on July 14, 2020,
regarding previously filed Motions to Discharge Incompetent Ineffective Counsel
and Motion for Statement of Particulars on June 1, 2020 of which all to this day
continue to be intentionally ignored, the court responded on July 31, 2020, with an
Order Dismissing Pro Se Motions stating “the Motions are due to be dismissed
because the Court’s records reflect that the Defendant is currently represented by

counsel”.

Again, to reiterate, despite motioning to Discharge Incompetent

Ineffective Counsel June 1, 2020, followed by filing a Waiver of Right to Counsel
and Notice of Pro Per Appearance on July 14, 2020, the Court dismissed the
motions to rid himself of intentionally ineffective counsel in order to self represent
reasoning only that they must be dismissed because petitioner is “represented by
counsel”. The very counsel he seeks to discharge. Petitioner is being denied both
his constitutional right to effective assistance of counsel, as well as his right to self
representation. Petitioner seeks to have the Motion to Dismiss for lack of subject
matter adjudicated based upon its merits as well as the motions to discharge
counsel in order to self represent respected and processed appropriately with the
necessary Nelson and Faretta hearings.
REASONS FOR GRANTING THE PETITION
The trial courts “blanket” denial, dismissal and disregard of petitioners pro
se pleadings is an abuse of discretion; especially after being made aware of conflict
amongst a defendant and his incompetent ineffective assigned counsel. The trial
court is required to hold hearings to inquire about the alleged conflicts and
incompetency and yet another hearing to determine the unequivocal request to self
represent. Instead, the trial court is using the assignment of counsel and its quote
“representation” as a rock to hold the defendant between it and the hard place of
not being able to speak for himself and not having adequate assistance of counsel

to speak for him. In effect, the assignment of “representation” is being maliciously
abused to silence and mute the defendant.
Additionally, the petitioner has an inferred immunity from the below charges
because he has submitted the required return necessary to establish adverse
possession in accordance with Florida Statute 95.18. The trial court was forced to
confront the fact that it does not possess the requisite subject matter jurisdiction in
the case below where an adverse possessor is being persecuted for theft despite
making the required return and, not leasing the property to another FS
95.18(9)(10). This is why the trial court dismissed only the dismissal motion and
request for hearings.

In doing so, the judge has forgone his immunity by

knowingly acting outside of his authority without subject matter jurisdiction.
There exists no offense or crime committed and a truly innocent citizen is being
intentionally deprived of his rights.
CONCLUSION
The Sixth Amendment grants to each criminal defendant the right of self­
representation. Under this Court's ruling in Faretta, an accused has the right to
self-representation at trial. A defendant's choice to invoke this right ‘must be
honored out of that respect for the individual which is the lifeblood of the law.’
The Sixth and Fourteenth Amendments include a ‘constitutional right to
proceed without counsel when’ a criminal defendant ‘voluntarily and intelligently

elects to do so. It is unconstitutional to deny petitioner his right to self represent
while citing him being represented by counsel, after advising the court of an
adversarial relationship and seeking to discharge said counsel.
Florida Statute 95.18(10) states “A person who occupies or attempts to
occupy a residential structure solely by claim of adverse possession under this
section [prior to making a return as required under subsection (3), (95.18(9))] and
offers the property for lease to another commits theft under s. 812.014”. The
petitioner submitted the return as required under subsection (3) of 95.18 to the Bay
County Property Appraiser on December 29, 2017. The Defendant has not, nor
does the information charge him with, offering “the property for lease to another”.
Theft cannot be without offering for lease and making a return.

Adverse

possession is not a crime. Per Florida Law, an individual commits theft, if he.
occupies “solely by claim”, without making the required return, and offers the
property for lease. The return form DR-452 serves as notice to all who would
challenge establishing the adverse possession as a cause of action to which legal
action may be brought. The crime of theft, is specific to — the receipt of monies in
connection with offering “the property for lease”. Establishing adverse possession
is no crime, it is regulated and permitted by Florida State 95.18. The lower court
lacks the requisite subject matter jurisdiction and the merits of petitioners Motion
to Dismiss should be adjudicated appropriately.

For these simple reasons, the Motion to Dismiss was unconstitutionally
dismissed by citing petitioner being represented by counsel after the court was both
advised of an adversarial relationship and seeking to discharge the ineffective
counsel in order to self represent. The First District Court of Appeal should have
granted the Certiorari relief sought or at a very minimum provided at least one
sentence to support their refusal to do so. As a result of these improprieties,
petitioner respectfully asks this honorable Court to grant the certiorari relief sought
in order for petitioner to be able to proceed with the desired self representation and
have the Motion to Dismiss for lack of subject matter adjudicated upon its merits.
Alternatively, petitioner respectfully asks this honorable court to order he be
discharged from the sham proceedings given he is a civil adverse possessor and,
after following the law and making both the required return and payment of taxes,
there can be no crime committed as clearly stated in Florida Statute 95.18.

Respectfully submitted,
/s/Steven Cooper. Pro Se

